         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The Department of Energy's American
Recovery and Reinvestment Act –
Missouri State Energy Program




OAS-RA-L-12-06                       July 2012
                                  Department of Energy
                                     Washington, DC 20585
                                           July 20, 2012


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY
               AND RENEWABLE ENERGY


FROM:                     Daniel M. Weeber, Director
                          Eastern Audits Division
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department of Energy's
                          American Recovery and Reinvestment Act – Missouri State Energy
                          Program"

BACKGROUND

The Department of Energy's Office of Energy Efficiency and Renewable Energy (EERE)
provides grants to states, territories and the District of Columbia (states) to support their energy
priorities through the State Energy Program (SEP). Funding is based on a grant formula that
considers population and energy consumption, and in Fiscal Year (FY) 2009 totaled $25 million.
The American Recovery and Reinvestment Act of 2009 expanded the SEP by authorizing an
additional $3.1 billion in funding. After reviewing planned activities for each state, EERE made
grant awards designed to achieve SEP Recovery Act objectives using existing formulas. These
objectives included preserving and creating jobs, saving energy, increasing renewable energy
sources and reducing greenhouse gas emissions. In April 2009, EERE granted a $57.4 million
award to the State of Missouri for its Recovery Act SEP. Under the terms of the award, the
funds were to be expended by March 31, 2012.

The State of Missouri's Department of Natural Resources (Missouri) administers the Recovery
Act SEP funds. Because of the significant increase in Recovery Act funding, Missouri
developed a new, multi-faceted approach to reach as much of the State's populace as possible.
Missouri established reimbursement and loan agreements to fund residential, agricultural and
industrial energy efficient projects across the State. As part of the Office of Inspector General's
strategy for reviewing the Department's implementation of the Recovery Act, we initiated this
review to determine whether Missouri effectively administered its Recovery Act SEP grant.

CONCLUSIONS AND OBSERVATIONS

We found that Missouri had developed a comprehensive SEP program and internal control
structure designed to meet Recovery Act objectives. Consistent with a number of other
jurisdictions, however, Missouri encountered a number of challenges that initially delayed
progress of its SEP projects. In particular, the State encountered delays in establishing contracts,
hiring needed staff and in establishing its agriculture loan program. These initial delays
impacted the timely infusion of funds into the economy and affected overall grant performance.
Because of the delays in administering its grant, the Department ultimately gave Missouri an
additional 9 months to spend its funds. Given Missouri's progress at the time of our review, it
appeared that the State was on-track to meet the Department's new, extended deadline.

                                          Missouri SEP

Upon receipt of Recovery Act funds, Missouri expanded its SEP to include 21 programs and 129
individual projects. This revised SEP was designed to encourage Missouri homeowners, farmers,
industries and State and local government entities to implement energy efficiency measures
throughout the State. Although it obtained the Recovery Act SEP award in April 2009, Missouri
was unable to initially disburse funds for its projects until December 9, 2010, past the halfway
point of when Missouri's Recovery Act funds were to have been expended, March 31, 2012.
According to Missouri officials, expenditures were initially delayed, in part, due to the time period
needed to solicit contractors to design its new, larger program, administer activities of the new
program and to hire employees to oversee the SEP.

                        Agriculture Loan Program Terms and Conditions

Missouri's progress in expending SEP Recovery Act funds also may have been delayed by the
inability of sub-recipients to meet terms and conditions established by Missouri for its
agriculture loan program. Specifically, Missouri set aside $4.5 million in Recovery Act SEP
funds for its agriculture loan program, and planned to provide loans between $30,000 and
$500,000 to farmers and agricultural entities for the acquisition and installation of energy
efficient equipment. Terms and conditions of the loans required prospective applicants to fund a
minimum of 20 percent of the project themselves. According to Missouri officials, they
established the minimum applicant participation to reduce the risk associated with completing
the projects. Missouri officials explained that the commitment level for a project is normally
higher if the participant has money of its own at stake.

However, prior to implementation of the agriculture loan program, Missouri's design and
implementation contractor that administered the program informed State officials that the
majority of farmers may not apply because they would be unable to pay the up-front costs.
Missouri decided to adhere to the 20 percent requirement and received only six applications, of
which only one was deemed potentially eligible. Rather than making that loan, Missouri decided
to terminate the agriculture loan program and reallocated the $4.5 million to its school and local
government loan program. Missouri officials deemed this reallocation a success, as the State
subsequently awarded multiple loans for energy-efficiency projects.

                                      Missouri SEP Progress

Missouri requested that the Department extend the time period for expending funds specified in
the grant agreement because it was unable to spend all SEP funds within the original timeframe.
In response, the Department granted a 9 month extension until December 31, 2012, to complete
the execution of its Recovery Act SEP. According to Missouri officials, as of May 31, 2012, the
State had spent $52.6 million, or 92 percent, of its $57.4 million award. Given the extension




                                                 2
granted to Missouri's Recovery Act SEP, Missouri officials told us that they expect to fully
expend the remaining SEP Recovery Act funds.

Because of actions taken by the Department and Missouri to address the issues we discovered,
we are making no formal recommendations. As such, a response to this report is not required.
We appreciate the cooperation of your staff and the various Departmental elements that provided
assistance during our audit.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff




                                                3
                                                                                     Attachment


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of the audit was to determine whether the State of Missouri (Missouri) effectively
administered the American Recovery and Reinvestment Act of 2009 (Recovery Act) State
Energy Program (SEP) grant.

SCOPE

The audit was performed from June 2011 through June 2012, and we conducted work at the
Department of Natural Resources in Jefferson City, MO and obtained information from Shaw
Environmental and Infrastructure, Inc. in Chicago, IL.

METHODOLOGY

To accomplish the audit objective, we:

       Reviewed laws and regulations, SEP Formula Grants Recovery Act Funding
        Opportunity, and Office of Management and Budget policies and procedures relevant to
        the management of the Department of Energy's (Department) Office of Energy
        Efficiency and Renewable Energy Recovery Act funding;

       Reviewed grant award files, revolving loans terms and conditions and correspondence
        documents;

       Held discussions with Missouri officials at the Department of Natural Resources;

       Interviewed key personnel at the Department of Natural Resources and Shaw
        Environmental and Infrastructure, Inc.;

       Evaluated the Missouri SEP Recovery Act State plan, award proposals and contracts;
        and,

       Performed transaction testing for a sample of SEP Recovery Act transactions.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed significant
internal controls and compliance with laws and regulations to the extent necessary to satisfy the
audit objective. In particular, we assessed the implementation of the GPRA Modernization Act of
2010 as it relates to the audit objective and found that the Department had established



                                                4
                                                                           Attachment (continued)


performance measures related to the SEP. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We did not rely on computer-processed data to accomplish our audit objective.

Management waived an exit conference on June 27, 2012.




                                                 5
                                                               IG Report No. OAS-RA-L-12-06

                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report which would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
